Office of the Prosecuting Attorney

DANIEL T. SATTERBERG

APPELLATE UNIT
W554 King County Courthouse
516 Third Avenue
Seattle, WA 98104-2385
(206) 477-9497 FAX (206) 259-2795

Prosecuting Attorney

11 September, 2020
Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington D.C. 20543-0001
Re: Davis v. Washington, No. 20-5379 – Extension Request
Dear Mr. Harris:
On August 31, 2020, this Court requested that I respond by September 30, 2020 to the petition
for a writ of certiorari in the above case. I have reviewed the petition and have begun to draft a
response. However, I have deadlines pending in other cases during the month of September and
I also am scheduled to appear before the Washington Supreme Court for oral argument on
September 24, 2020. These preexisting obligations will make it difficult to prepare a proper
brief in opposition to certiorari in this case by September 30th. For this reason, the State of
Washington respectfully requests permission to file its brief in opposition two weeks later, on
October 14, 2020.
Very truly yours,
_________________________
James M. Whisman, WSBA # 19109
Senior Deputy Prosecuting Attorney
Attorney for Respondent
Today I sent a copy of this letter by electronic mail to David Koch, the attorney of record for the
Petitioner.
I certify under penalty of perjury of the laws of the state of Washington that the foregoing is true
and correct.
____________________________
Name
9/11/2020
Date
Done in Seattle, Washington

